No.:
IN THE SUPREME COURT OF THE UNITED STATES

JAMES H. SMITH
Petitioner >
vs.
BRIAN COOK, Warden
Respondent,

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

I, hereby certify that a copy of the enclosed Petitioner's
Motion to Proceed In Forma Pauperis and Petition For Writ of
Certiorari were served via first-class U.S. mail, postage prepaid
on this ___ day of November 2020 upon:

Mary Anne Reese
Assistant Attorney General
441 Vine street, Ste 1600
Cincinnati, Ohio 45202
All persons required to be served

e been se
'cUasJs*l
^mes H. Smith #bb^
0 Box 56
ebanon, Ohio 45036

35

